                                                   NATIONAL SCIENCE FOUNDATION
                                                    OFFICE OF INSPECTOR GENERAL
                                                      OFFICE OF INVESTIGATIONS
                                                                                                    I

                                               CLOSEOUT MEMORANDUM                                  I




     Case Number: I07080026                                                      11          Page 1 of 1



           This investigation was opened due to an allegation that a former Principal Investigator who is
           also a former employee1of an organization2 which received NSF wards^ had embezzled'NSF
           Award funds. The investigation, which included review of program records, available financial
           documents4, and interviews with the organization's personnel resulted in finding no evidence to
           substantiate that NSF Award funds had been misappropriated or embezzled. Therefore, no
           further investigative efforts are required in this case.

           Accordingly, this case is closed.




II
 NSF OIG Form 2 ( 1 1/02)
                                                                                                I            !I
